      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                          Washington, D.C. 20201




February 22, 2010

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children & Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review of Centro de la Familia de Utah Head Start
               Program (A-07-09-02768)


The attached final report provides the results of our limited scope review of Centro de la Familia
de Utah Head Start Program. This review was requested by the Administration for Children &
Families, Office of Head Start, as part of its overall assessment of Head Start grantees that have
applied for additional funding under the Recovery Act.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-07-09-02768 in all correspondence.


Attachment


cc:
Ross Weaver
Regional Program Manager, Region VIII
Office of Head Start
ross.weaver@acf.hhs.gov
Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




 RESULTS OF LIMITED SCOPE
  REVIEW OF CENTRO DE LA
     FAMILIA DE UTAH
   HEAD START PROGRAM




                   Daniel R. Levinson
                    Inspector General

                     February 2010
                     A-07-09-02768
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to the Improving Head Start for School Readiness Act of 2007, P.L. No. 110-134, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social and
other services to enrolled children and families. Within the U.S. Department of Health & Human
Services, the Administration for Children & Families, Office of Head Start (OHS), administers
the Head Start program. The Head Start program provides grants to local public and private non-
profit and for-profit agencies to provide comprehensive child development services to
economically disadvantaged children and families.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start Centers and classrooms, increase
hours of operation, and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly five percent cost-of-living increase and to
bolster training and technical assistance activities.

Centro de la Familia de Utah (CDLF) is a non-profit agency, incorporated in 1975, whose
mission is to strengthen the immigrant and Latino community in the State of Utah. In 1991,
CDLF began its Migrant Head Start program to serve children from migrant and seasonal
farmworking families. In addition, CDLF has administered a regular Head Start program since
2001. CDLF provides a comprehensive set of services, which includes full-day childcare, health
and dental care, nutrition, and educational and social services, to children from birth to five years
old and to their families.

CDLF is funded primarily through Federal and local government grants. OHS awarded
$4,706,200 in Federal Migrant Head Start funds to CDLF for the 2009–2010 grant year
(April 1, 2009, through March 31, 2010) to provide services to 402 children in three facilities it
operates. On June 24, 2009, CDLF’s Migrant Head Start program received $257,907 in
Recovery Act funding for cost of living allowances and quality improvements.

In addition, OHS awarded $1,624,700 in Federal Head Start funds to CDLF for the 2009–2010
grant year to provide services to 128 children in two other facilities it operates. On
June 29, 2009, CDLF’s Head Start program also received $76,689 in Recovery Act funding for
cost of living allowances and quality improvements.

OBJECTIVES

The objectives of our limited scope review were to determine whether: (1) CDLF is fiscally
viable and (2) CDLF’s financial management system adequately managed and accounted for
Federal funds.




                                                  i
SUMMARY OF FINDINGS

Based on its current financial condition, CDLF has improved its financial viability over the past
5 years. However, CDLF’s financial flexibility 1 is impaired due to the lack of short-term
liquidity and an unrestricted net asset deficit that has caused it to rely on a line of credit with its
bank. Also, CDLF’s financial management system did not adequately manage Federal funds
used for administrative costs and indirect costs. Furthermore, CDLF’s matching share in-kind
costs were not always allowable or reasonable. As a result,

        we were unable to verify, for program year 2008–2009, that development and
         administrative costs did not exceed 15 percent of the total Head Start program costs;

        development and administrative costs reported on CDLF’s Financial Status Reports to
         ACF were not based on actual costs;

        the Migrant Head Start program may be paying more than its fair share of indirect and
         dual benefit payroll costs; and

        CDLF may not have provided 20 percent of the total costs of the Head Start program.

RECOMMENDATION

In determining whether CDLF should be awarded additional Head Start and Recovery Act grant
funding, we recommend that ACF consider the information presented in this report in assessing
CDLF’s financial condition.

AUDITEE COMMENTS

In written comments on our draft report, CDLF stated that it accepted our findings “as useful
improvements to the fiscal operations” of the agency. CDLF added that it has implemented
procedures to correct the issues identified in our findings, and offered narrative comments to
demonstrate its commitment to improving the financial viability of the organization and the
establishment of controls in the areas in which we reported control deficiencies. However, in
commenting on that portion of our findings that dealt with indirect costs, CDLF disagreed with
our inclusion of the U.S. Department of Agriculture (USDA) grant in the cost pool to which
indirect costs could be allocated.

CDLF’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

CDLF did not provide evidence that it was authorized to exclude USDA funds from its cost
allocation plan. The regulations for both the Head Start and USDA Child and Adult Care Food

1
 Per Financial Accounting Standards Board (FASB) Statement No. 117, financial flexibility is the ability of an entity
to take effective actions to alter amounts and timing of cash flows so it can respond to unexpected needs and
opportunities.


                                                         ii
Programs state that the allowability of costs incurred by non-profit organizations is determined in
accordance with the provisions of Office of Management and Budget (OMB) Circular A–122,
Cost Principles for Non-Profit Organizations. Exclusions to the cost principles are typically
negotiated when formulating an indirect cost rate agreement. However, CDLF has not secured
such an agreement and has not been authorized by the U. S. Department of Health & Human
Services to exclude the USDA funds from the provisions of OMB Circular A-122. Therefore,
we maintain that the USDA funds need to be included in CDLF’s cost allocation plan.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND ......................................................................................................1
              Federal Head Start Program...........................................................................1
              Centro de la Familia de Utah .........................................................................1
              Federal Regulations for Head Start Grantees.................................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY...................................................2
               Objectives ......................................................................................................2
               Scope .............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATION.........................................................................3

          FINANCIAL VIABILITY.........................................................................................3
               Short-Term Liquidity .....................................................................................4
               Unrestricted Net Asset Deficit .......................................................................4

          FINANCIAL MANAGEMENT SYSTEM ...............................................................4
               Administrative Costs......................................................................................5
               Indirect and Dual Benefit Cost Allocation.....................................................5

          IN-KIND MATCH.....................................................................................................6
                Allowability of Parent Involvement Activities ..............................................6
                Allowability of Parent Transportation ...........................................................7
                Reasonableness of Parent Involvement Activities.........................................8
                Reasonableness of Donated Supplies.............................................................8

          CONCLUSION .........................................................................................................9

          RECOMMENDATION ............................................................................................9

          AUDITEE COMMENTS...........................................................................................9

          OFFICE OF INSPECTOR GENERAL RESPONSE ................................................10

APPENDIX

          AUDITEE COMMENTS




                                                                    iv
                                        INTRODUCTION

BACKGROUND

Federal Head Start Program

Pursuant to the Improving Head Start for School Readiness Act of 2007, P.L. No. 110-134, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social and
other services to enrolled children and families. Within the U.S. Department of Health & Human
Services, the Administration for Children & Families, Office of Head Start (OHS), administers
the Head Start program.

The Head Start program provides grants to local public and private non-profit and for-profit
agencies to provide comprehensive child development services to economically disadvantaged
children and families, with a special focus on helping preschoolers develop the early reading and
math skills needed to be successful in school. Head Start programs engage parents in their
children’s learning and emphasize parental involvement in the administration of local Head Start
programs.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly five percent cost-of-living increase and to
bolster training and technical assistance activities.

Centro de la Familia de Utah

Centro de la Familia de Utah (CDLF) is a non-profit agency, incorporated in 1975, whose
mission is to strengthen the immigrant and Latino community in the State of Utah. In 1991,
CDLF began its Migrant Head Start program to serve children from migrant and seasonal
farmworking families. In addition, CDLF has administered a regular Head Start program since
2001. CDLF provides a comprehensive set of services, which includes full-day childcare, health
and dental care, nutrition, and educational and social services, to children from birth to five years
old and to their families.

CDLF is funded primarily through Federal and local government grants. OHS awarded
$4,706,200 in Federal Migrant Head Start funds to CDLF for the 2009–2010 grant year
(April 1, 2009, through March 31, 2010) to provide services to 402 children in three facilities it
operates. On June 24, 2009, CDLF’s Migrant Head Start program also received $257,907 in
Recovery Act funding for cost of living allowances and quality improvements.

In addition, OHS awarded $1,624,700 in Federal Head Start funds to CDLF for the 2009–2010
grant year to provide services to 128 children in two other facilities it operates. On




                                                  1
June 29, 2009, CDLF’s Head Start program also received $76,689 in Recovery Act funding for
cost of living allowances and quality improvements.

Federal Regulations for Head Start Grantees

Pursuant to 45 CFR § 74.21, grantees are required to maintain financial management systems
that contain written procedures for determining the reasonableness, allocability, and allowability
of costs. Grantees must maintain accounting records that are supported by source documentation
and must maintain financial systems that provide for accurate and complete reporting of grant-
related financial data.

OBJECTIVES, SCOPE AND METHODOLOGY

Objectives

The objectives of our limited scope review were to determine whether: (1) CDLF is fiscally
viable and (2) CDLF’s financial management system adequately managed and accounted for
Federal funds.

Scope

We performed our review based upon a limited scope request from ACF, dated April 13, 2009.
Therefore, we did not perform an overall assessment of CDLF’s internal control structure.
Rather, we reviewed only the internal controls that pertained directly to our objectives. Our
review period was July 1, 2008, through June 30, 2009.

We performed our fieldwork at CDLF’s administrative office in South Salt Lake, Utah, during
July and August 2009.

Methodology

To accomplish our objectives, we:

       reviewed relevant Federal laws, regulations and guidance;

       reviewed CDLF’s fiscal procedures related to accounting documentation and preparation
        of financial reports;

       obtained Federal grant award documentation to determine CDLF’s Federal funding;

       reviewed CDLF’s financial statements for fiscal years (FY) 2005 through 2009; 1

       reviewed CDLF’s monthly general ledger transactions;
1
 We reviewed CDLF’s audited financial statements for FYs 2005 through 2008 as well as CDLF’s FY 2009
financial statement, which had not been finalized by the time we conducted our fieldwork.



                                                     2
        performed liquidity and stability analyses of CDLF’s finances; and

        interviewed officials at CDLF’s bank to determine the status of CDLF’s line of credit.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                               FINDINGS AND RECOMMENDATION

Based on its current financial condition, CDLF has improved its financial viability over the past
5 years. However, CDLF’s financial flexibility 2 is impaired due to the lack of short-term
liquidity and an unrestricted net asset deficit that has caused it to rely on a line of credit with its
bank. Also, CDLF’s financial management system did not adequately manage Federal funds
used for administrative costs and indirect costs. Furthermore, CDLF’s matching share in-kind
costs were not always allowable or reasonable. As a result,

        we were unable to verify, for program year 2008–2009, that development and
         administrative costs did not exceed 15 percent of the total Head Start program costs;

        development and administrative costs reported on CDLF’s Financial Status Reports
         (standard form 269) (SF-269) to ACF were not based on actual costs;

        the Migrant Head Start program may be paying more than its fair share of indirect and
         dual benefit payroll costs; and

        CDLF may not have provided 20 percent of the total costs of the Head Start program.

FINANCIAL VIABILITY

Based on its current financial condition, CDLF is a fiscally viable organization. However,
CDLF’s financial flexibility is impaired due to the lack of short-term liquidity and an
unrestricted net asset deficit that has caused it to rely on a line of credit with its bank.

To determine whether CDLF is financially viable, we performed liquidity and stability analyses
of CDLF’s finances for FY 2009 and, for background information, we reviewed CDLF’s
financial history for FYs 2005–2008.




2
 Per Financial Accounting Standards Board (FASB) Statement No. 117, financial flexibility is the ability of an entity
to take effective actions to alter amounts and timing of cash flows so it can respond to unexpected needs and
opportunities.


                                                         3
Short-Term Liquidity

We performed a liquidity analysis—the relationship of current assets to current liabilities—to
determine CDLF’s ability to pay its current obligations. Generally, for an organization to be
considered fiscally sound, its current assets should be valued more than its current liabilities.
Our analysis indicated that CDLF’s current liabilities exceeded its current assets (the current
assets-to-liabilities ratio was 0.71 at fiscal year end (FYE) 2009). 3 In addition, CDLF’s working
capital—current assets ($318,814) less current liabilities ($450,683)—was negative (-$131,871)
at FYE 2009. 4 Positive working capital is a common measure of an organization’s liquidity,
efficiency, and overall health. Negative working capital shows the inverse.

Unrestricted Net Asset Deficit

Unrestricted net assets are similar to retained earnings or owners’ equity in business enterprises.
Unrestricted net assets usually accumulate over several years, and are available for use by the
organization at the discretion of the board of directors. CDLF had an unrestricted net asset
deficit since FY 2005, if not longer. Consequently, CDLF has had to rely on a line of credit with
its bank to fund its operating shortfalls. CDLF had an unrestricted net asset deficit of $148,000
at FYE 2009 (unaudited). CDLF has reduced the deficit by 66 percent from FY 2005 ($433,000)
to FY 2009 ($148,000).

The bank became concerned with CDLF’s line of credit when the unrestricted net asset deficit
exceeded $300,000 in FY 2005, and it required CDLF to bring its operating deficits under
control. These financial difficulties threatened CDLF’s fiscal viability. CDLF’s Board of
Directors addressed this crisis by hiring a new Chief Executive Officer in September 2006, in
part to instill stronger fiscal responsibility and eliminate CDLF’s operating deficits.
Accordingly, CDLF assessed its programs and shut down two facilities that it could no longer
feasibly maintain. Bank officials told us that the bank is satisfied with CDLF’s progress to date.
CDLF is considering additional cost-cutting measures that include reducing the lease cost on its
administrative office by moving to a smaller space. CDLF’s financial condition has improved
under the new leadership.

To ensure the continuing viability of the organization as a going concern, CDLF needs to
strengthen its financial flexibility by improving liquidity and increasing unrestricted net assets.

FINANCIAL MANAGEMENT SYSTEM

CDLF’s financial management system did not adequately manage Federal funds used for
administrative costs and indirect costs.



3
This ratio means that for every $1 owed in short-term obligations, CDLF only has 71 cents to cover each dollar’s
worth of obligations. The assets-to-liabilities ratios for FYEs 2007 and 2008 were .41 and .55, respectively.
4
    The working capital at FYEs 2007 and 2008 was (-$378,718) and (-$261,860), respectively.



                                                          4
Administrative Costs

Federal regulations (2 CFR § 215.21(b)(1)) state that a grantee’s financial management systems
must provide “accurate, current, and complete disclosure of the financial results of each federally
sponsored project or program.” In addition, 45 CFR § 1301.32(a) stipulates that development
and administrative costs of a Head Start program must not exceed 15 percent of the total
approved program costs. Further, 45 CFR § 74.52(a)(1)(i) states that Federal Head Start grantees
are required to submit SF-269s at least annually. The grantee certifies on the SF-269 that the
obligations and expenses included on the reports are complete and correct.

Contrary to the provisions of 2 CFR § 215.21(b)(1), CDLF did not consistently designate, at the
transaction level, whether costs charged to the Migrant Head Start grant were programmatic or
administrative. As a result, CDLF’s accounting system could not be used to identify the actual
costs of administering the Migrant Head Start program. CDLF determined administrative costs
for the program by using the administrative cost percentages from the Grant Application Budget
Instrument. OHS’s prescribed limits for administrative costs are intended to be used as guidance
for limiting administrative costs in specific expense categories. For example, OHS has a
prescribed administrative cost limit of 5 percent for telephone costs. Such limits aim to ensure
that Head Start funds expended by a grantee agency like CDLF are used primarily for the
delivery of services and not for excessive administrative costs. However, CDLF used the
prescribed expense category limits to determine its administrative costs for the expense category
regardless of what portion of the actual costs were administrative.

Indirect and Dual Benefit Cost Allocation

The cost principles regarding allocable costs are set forth in Office of Management and Budget
(OMB) Circular A-122, Cost Principles for Non-Profit Organizations, Appendix A, Basic
Consideration No. 4, which states:

       A cost is allocable to a particular cost objective, such as a grant, contract, project,
       service, or other activity, in accordance with the relative benefits received. A cost
       is allocable to a Federal award if it is treated consistently with other costs incurred
       for the same purpose in like circumstances and if it (1) [i]s incurred specifically
       for the award; (2) [b]enefits both the award and other work and can be distributed
       in reasonable proportion to the benefits received, or (3) [i]s necessary to the
       overall operation of the organization, although a direct relationship to any
       particular cost objective cannot be shown.

Furthermore, OMB Circular A-122, Appendix B(8)(m)(1) and (2)(a), states that “[t]he
distribution of salaries and wages to awards must be supported by personnel activity reports. . . .
The reports must reflect an after-the-fact determination of the actual activity of each employee.
Budget estimates (i.e., estimates determined before the services are performed) do not qualify as
support for charges to awards.”

Contrary to the provisions of OMB Circular A-122, Appendix A, CDLF did not have a cost
allocation plan that fairly allocated indirect costs and dual benefit costs to its various funding



                                                  5
sources. CDLF currently allocates indirect costs between the following three programs, based on
a percentage of their combined total funding: Migrant Head Start, Head Start and a substance
abuse program funded by Salt Lake County. For FY 2009, CDLF received approximately
$5.7 million for the two Head Start programs combined, and over $91,400 for the substance
abuse program. However, CDLF’s indirect cost allocation plan did not conform to the
provisions of OMB Circular A-122, Appendix A, because that indirect cost allocation plan
excluded nine additional programs for the administration of which CDLF received over
$367,200 in FY 2009.

In addition, and contrary to the provisions of OMB Circular A-110, Uniform Administrative
Requirements for Grants and Other Agreements with Institutions of Higher Education, Hospitals
and Other Non-Profit Organizations, Appendix B, dual benefit payroll costs were allocated
based on estimates and not on actual benefits received. For example, an employee at CDLF’s
Box Elder facility spent time on two different programs. Eighty percent of the employee’s time
was charged to the Migrant Head Start program and the rest to a program funded through Utah
State University. The facility director told us that the employee was not required to keep track of
how much time was spent working on each program.

IN-KIND MATCH

CDLF’s matching share of the total Migrant Head Start program costs consisted of in-kind costs
that were not always allowable, with respect to parent involvement activities and parent
transportation, or reasonable, with respect to parent involvement activities and donated supplies.

Federal regulations (45 CFR § 1301.20(a)) require grantees to provide 20 percent of the total
costs of the Head Start program unless a waiver has been granted. This matching share must
come from non-Federal sources. ACF has not granted CDLF a waiver for the 2009 grant year.
CDLF purports that it met the Head Start requirements for the 20 percent matching share through
in-kind contributions from parent involvement activities, volunteer services, teacher home visits,
transportation costs (miles), donated materials, vendor discounts, and other miscellaneous items.
However, as we will discuss below, those matching share in-kind costs were not always
allowable or reasonable. Consequently, CDLF may not have provided 20 percent of the total
costs of the Head Start program. We selected the January 2009 Migrant Head Start in-kind
contributions totaling $104,265 for review.

Allowability of Parent Involvement Activities

Federal regulations (45 CFR § 74.23(i)(1) state that “volunteer services shall be documented and,
to the extent feasible, supported by the same methods used by the recipient for its own
employees, including time records.” OHS guidance (OHS–PC–A–006) states that “if a Head
Start child’s teacher provides the child’s parents with written plans or guidance as to the types of
activities that need to be done with the child at home in order to support the child’s Head Start
experience these activities may, when fairly valued, be counted as non-federal share.” Further
clarification is provided in OHS guidance (OHS–PC–A–077) which states: “A parent
involvement activity that primarily benefits the parent and their child is not considered an




                                                 6
allowable cost for an in-kind match. An activity that provides a good or service to benefit the
program is considered an allowable cost for an in-kind match.”

CDLF reported, as part of its non-Federal share match, $3,622 for unallowable hours spent by
parents helping their children at home with activities for which we could not determine a benefit
to the Head Start program. The ineligible activities included activities that were either not
outlined by the teachers or had inadequate or blank descriptions. Ineligible activities not
outlined by the teachers included activities such as shopping, going to church, going to the
movies, and celebrating a birthday. We concluded that approximately 353 hours from 64 activity
reports were not allowable because either the activity was not filled in on the report or the type of
activity was ineligible. In addition, we could not always determine whether an activity was
allowable because some of the activity descriptions were vague. Additionally, most of the
exceptions lacked approval of the volunteers’ time because the center director’s signature was
missing from the documentation. The teachers’ signatures were also frequently missing from the
volunteer activity forms. Because the activity forms are primarily filled out in Spanish, 5 the
accounting personnel rely on the facilities to ensure allowability. In our opinion, the teachers
should be performing a more thorough review, because they are in the best position to know
whether the parent activities are benefiting the program and to assess the accuracy of the
reported hours.

Seventy-seven percent of the exceptions occurred at the Providence facility. CDLF’s Chief
Executive Officer stated that staff turnover at the Providence Center Director position
contributed to the problem. We spot-checked the June 2009 in-kind contribution forms and
found that the Providence facility was doing a better job of documenting the volunteer time and
ensuring that activities were allowable.

Allowability of Parent Transportation

OHS guidance (ACF-PI-HS-07-04) states:

            [A]s of June 24, 2007 . . . Head Start funds cannot be used to cover the costs of
            any transportation that is not in a compliant vehicle and, therefore, Head Start
            grantees cannot claim as non-federal share any costs incurred in transporting
            Head Start children who are not being transported in compliant vehicles. The
            costs incurred by parents in transporting their children to and from a Head Start
            center will no longer be able to be counted as non-federal share.

CDLF reported, as part of its non-Federal share match, unallowable miles for parents
transporting their children to and from the Head Start facility. The transportation cost in-kind
match totaled approximately $9,400 in January 2009. Mileage, volunteer time and other
donations are tracked using volunteer activity logs. The parents did not always specify a
volunteer service on the logs that we reviewed. In some other cases, the reported activity was
too vague for us to determine the nature of volunteer work performed. For example, parents
would only note that they were visiting the facility. However, staff from two of the facilities told
us that the reported mileage sometimes included parents’ mileage for dropping off and picking
5
    We had an auditor who is fluent in Spanish review the records.


                                                            7
up their children. We saw several logs in which the reported activity showed pick-up or drop-
off; however, due to the inadequate documentation we were unable to determine the frequency of
this practice.

Reasonableness of Parent Involvement Activities

Federal regulations (45 CFR § 74.23(a)) state that “[t]o be accepted, all cost sharing or matching
contributions, including cash and third party in-kind, . . . [a]re verifiable from the recipient’s
records; . . . [a]re necessary and reasonable for proper and efficient accomplishment of project or
program objectives; [a]re allowable under the applicable cost principles.”

In some cases the amount of time that parents reported on the activity reports appeared to be
unreasonable. As examples:

      A family reported spending over seven hours a day, each day of the week, assisting their
       child with his/her assigned activities.

      Families turned in two activity reports, one for each parent. For example, in one week, a
       parent reported spending over 34 hours and the other parent reported spending over 50
       hours assisting their child. Both parents reported the same activities.

      A parent signed his/her activity reports as well as the spouse’s reports.

      Parents submitted weekly forms up to three months after the fact.

      The reported time for multiple activities never varied from day to day and week to week.

In most of these cases, it appeared to us that the parents were simply filling out the forms to
boost their volunteer services contributions, and that the hours were not based on actual time
spent with their children on allowable activities.

Reasonableness of Donated Supplies

Federal regulations (45 CFR § 74.23(f) state that “Value assessed to donated supplies included in
the cost sharing or matching share shall be reasonable and shall not exceed the fair market value
of the property at the time of the donation.”

CDLF’s financial services specialist told us that the donor usually determines the value of the
donations. Because CDLF does not consider the fair market value of the donation when
determining the matching share, the donations may not always be reasonably valued. The
donated supplies in-kind match totaled over $2,140 in January 2009. Because the supporting
documentation did not adequately describe the donations, we could not determine the
reasonableness of the cost.




                                                 8
CONCLUSION

Based on its current financial condition, CDLF has improved its financial viability over the past
5 years. However, CDLF’s financial flexibility is impaired due to the lack of short-term liquidity
and an unrestricted net asset deficit that has caused it to rely on a line of credit with its bank.
Also, CDLF’s financial management system did not adequately manage Federal funds used for
administrative costs and indirect costs. Furthermore, CDLF’s matching share in-kind costs were
not always allowable or reasonable. As a result,

      we were unable to verify, for program year 2008–2009, that development and
       administrative costs did not exceed 15 percent of the total Head Start program costs;

      development and administrative costs reported on the SF-269 were not based on actual
       costs;

      the Migrant Head Start program may be paying more than its fair share of indirect and
       dual benefit payroll costs; and

      CDLF may not have provided 20 percent of the total costs of the Head Start program.

RECOMMENDATION

In determining whether CDLF should be awarded additional Head Start and Recovery Act grant
funding, we recommend that ACF consider the information presented in this report in assessing
CDLF’s financial condition.

AUDITEE COMMENTS

In written comments on our draft report, CDLF stated that it accepted our findings “as useful
improvements to the fiscal operations” of the agency. CDLF offered narrative comments to
demonstrate its commitment to improving the financial viability of the organization and the
establishment of controls in the areas in which we reported control deficiencies. However, in
commenting on that portion of our findings that dealt with indirect costs, CDLF disagreed with
our inclusion of the U. S. Department of Agriculture (USDA) grant in the cost pool to which
indirect costs could be allocated.

CDLF also provided information on corrective actions that it said it will undertake. Specifically,
CDLF stated that its Board of Directors is committed to eliminating the deficit and increasing
unrestricted assets as quickly as possible. To ensure that it is in compliance with the Head Start
administrative cost limits, CDLF said that it has modified its accounting software to allow for the
functional tracking of each transaction, thereby enabling CDLF to track administrative costs by
program and function. CDLF added that its cost allocation plan was amended in September
2009 so that all programs are included in the allocation model, except those as noted above. In
addition, CDLF said that it purchased software that will allow employees to charge time directly
to various programs on a daily basis. Finally, CDLF said that it has improved controls to ensure



                                                9
that (a) in-kind contributions are allowable, allocable, and reasonable, and (b) the non-Federal
share of total costs of the Head Start program is accounted for correctly.

CDLF’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

CDLF did not provide evidence that it was authorized to exclude USDA funds from its cost
allocation plan. The regulations for both the Head Start and USDA Child and Adult Care Food
Programs state that the allowability of costs incurred by nonprofit organizations is determined in
accordance with the provisions of OMB Circular A–122. Exclusions to the cost principles are
typically negotiated when formulating an indirect cost rate agreement. However, CDLF has not
secured such an agreement and has not been authorized by the U. S. Department of Health &
Human Services to exclude the USDA funds from the provisions of OMB Circular
A-122. Therefore, we maintain that the USDA funds need to be included in CDLF’s cost
allocation plan.




                                                10
APPENDIX
                                                                                          Page 1 of3


          APPENDIX: AUDITEE COMMENTS 





                 Centro de la Familia de Utah
                   D eveloping educa tional oppo rtunities that empower Latinos.




January 14. 2010


Office of Inspector General
Office of Audit Services
Region VI[
601 East 12'h Street. Room 0419
Kan sas City. Missouri 64106

Subject: Repon Number A-07-09-0276R

Centro de 10 Familia de Utah aclrnowlt:dges receipt of draft rcpon da ted January 12,
2010 for the on site visit in Jul y 2009. We appreciate the professionalism orthe team
assigned for this visit and aclmowtedge their cxpenise inlhe items presented in the
draft rcpon.

Centro de 10 Familia de Utah runs a high quality Head Start program for the children
of MigrMI agricultural workers in the Slale of Utah. We are proud of our
achievements in meeting the highest standards of educational requirements in Our
efforts to help the needy children and families we serve. We are continually striving
to achieve best practices in cvery aspect of our program and wc accept the findings of
the Office of the Inspector General as useful improvements to the fiscal operations of
our Agency. Our response is not to Cllcuse or j ustify any of Ihe ilems in the report.
Our goal is to have a high qua lity, accountable. and transparent organization. We
appreciate thc Office of Inspector General's review ofour fiscal operations and hllve
implemented procedures to correcl the findings mentioned in this report.



Item I : Financial Viability

Centro de la Familia de Utah has had an overall agency accumulated operating deficit
going back to thc mid 199Q·s. This deficit was caused by ellpenditure overruns in
various programs run by the agency. In 2006, uew management (Chief [!Ilecutive
Officer and Finance Director) were hired to address the deficit. Since September
2006. the accumulated defici t has shrunk from $260,000 down to $85,000 as of the
end of No vember 2009. This reduction in the deficit is reflected in the gradual
improvement in the current ratio mentioned in the report. This reduction in the deficit
has come from improved margins in the non-Head Start programs run by the agency
as we11 as fund raising efforts by the Board ofOirtctors. The Board of the
                                                                                            Page2of3




                 Centro de la Familia de Utah
                  Developing educational opportunities that empower latinos.


organization is committed to eliminating this deficit and increasing unrestricted assets
as quickly as possible. Progress on the deficit reduction is a mandatory report at every
meeting of tne Board of Directors and is Ine goal ofongoing fund raising efforts by
the Board. No Head Start funds arc used in the deficit reduction fund raisi ng efforts.
The calcul ation of the current ra1io is being added \0 Ihc mon thly reports giVClllO the
Board of Directors. The funding needs for Ihe agency are augmented through a
5250,000 line of credit loan through OUT bank. The bank routinely monitors our
progress on the deficit elimination and receives a copy orthe monthly financia l
reports given to the Board of Directors.


Item 2: Financial Management System

Administmtive Costs: Our accounting software has been modi fi ed to allow fo r
functional tracking of each transaction. In the accou nting software, each transaction
can be allocated among appropriate programs, and also allocated to Head Start defi ned
functio ns (administrati ve, educat ion, family partnerships, occupancy, transportation,
health, etc.). The report generated from the accoun ting system therefore tracks
administrative costs by program and fUnction, and can be directly tied to the
individual supporting tra nsaction. Reporting is avai lable for various sorts and detail
levels. TIlis revision to our accounting software was effective begilUling Oct 01.
2009. An October 2009 Federal Review by the Office of Head Start issued no
findings for our Administrative Cost Limitation tracking system. The December
2010 report shows our administrat ive costs to be 13.0% of total expenditures.

Cost Allocation: Over $200,000 of the funds not included in our Allocation Model
was the meal funding from the USDA. It is our understanding that Head Start has not
issued guidance on this ques tion and that Head Start agencies are not required to
allocate adminis trative costs to our USDA funds. In September 2009, our Cost
Allocation Plan was amended so tha t program size (not mailer how small) does not
determine what is included in the Allocation Model. This new Allocation Model
distributes allocable overhead costs b<lsed on <lctu<l1 hours worked. We have
purchased new time tracking software compatible with our payroll service that allows
for employees \0 charge their ho urs di rectly to various programs on a daily basis. An
October 2009 Federal Review by the Office of Head Start issued no findings for our
revised cost allocation plan


Item 4: In-Kind Match (Non-Federal Share)

Our procedures for tracking non-federal share donations have been revised and are in
the process ofimplemelltation. we are requiring Center Managers to be responsible
                                                                                             Page30f3




                 Centro de la Familia de Utah
                  Developi ng educatio nal o pportunities that e mpo wer lati nos.


for each volunteer activity ronn. For Parent Involvement Activities we arc requiring
thc teachers oonfinning signature that thc activity is indeed a curriculum based
activity with thc appropriate educational objective related to weekly lesson plans.
Parent Transportation is no t an allowable item unless thc parent is coming to thc
center as a volunteer. Center Managers have been trained in principles of recognition
of expenditure al1owability, allocability, and reasonableness, including specific
documen tation of an)' dona ted supplies. Such training will be repeated as nceded (at
[east once per year).

We have put in place several checks and balances to cnsure that non-federal share is
being accounted for correctly. Teachers are responsible for ensuring the Parent
Ed ucational Activity fomls arc directly related to lesson plans. Center managers are
responsible for ensuring tha t dona tion of goods and services arc only counted in the
non-federal share calculation if the item o r service is something that would othe!"l.vise
have been purchased by the agency. Central office managers ensure thaI non-federal
share items in each of thei r areas match the defini tions and guidance from the Office
of Head Start. Finall y, fina nce management provides ongoing training in conjunction
with the Deputy Head Start Director to individual centers and thcir staff and then
perfonns checks on documentation to ensure compliance wilh the procedures.
Periodic on-site monitoring by Ihc Financc Department and the Deputy Head Start
Director is scheduled ongoing throughout the year.




President
Board of Directors
Centro de la Familia de Utah
